Ik

Docket No.

lZS(o

IN THE
SUPREME COURT OF THE UNITED STATES
In Re Nina Shahin
Petitioner
vs.
Honorable Leonard P. Stark
Judge of the US District Court for the District of
Delaware and
Honorable Charles W. Welch, III
Judge of the Delaware Court of Common Pleas
in and for Kent County
Respondents.

PETITION FOR WRIT OF PROHIBITION AND/OR
WRIT OF MANDAMUS FILED UNDER
PROVISIONS OF RULE 20 OF THE SCOTUS
RULES OF PROCEDURE

Nina Shahin
In Pro se Representation
103 Shinnecock Rd.
Dover, DE 19904
(302)526-2152

FILED
MAY 0 8 2020

QUESTIONS PRESENTED FOR REVIEW
Questions presented for review are closely related to the
legal issues raised by the Respondent # 1 in his decision
of 03/15/2018

(Appendix M).

Those issues are

discussed in detail on pages 35 - 46 and here are the
questions that are the quintessential to the topics
discussed on those pages. 42 U.S.C. § .1983:..
1. How

“narrow”

Statute

of Removal

should

be

interpreted, especially in situations like the Petitioner’s?
2. Does, the Petitioner’s situation meet the standards of
“obtaining justice” and “local influence and prejudice” to
avoid limitation of transfers to defendants only?
3. Did the Petition for Writ of Mandamus filed with the
Third Circuit Court of Appeals meet that standard?
Note, the Court’s claim that “Shahin does not challenge
the District Court’s remand orders, and we therefore do
not consider whether we would have jurisdiction over
such a challenge” (Appendix E, page 5) is a lie. That
decision was entered on 05/02/19 and appeal with the
ii

(■

Court in this case was filed on 04/11/2019!
4. Does Petitioner’s ‘Notice of Removal’ fall under
provisions of 28 U.S.C. § 1446(b) (30-day limitation)?
5. Does the presiding Judge of the CCP have the power
to interpret Petitioner’s Complaint regarding legal basis
under which it had been filed without pretrial
‘Stipulations’ that clarify that point and disregard her
‘Response’ to his mandate to respond to the Defendant’s
claims of “immunity?”
6. Does the Defendant (Officer Dale Boney) have to
agree to the removal of the case to the federal district
court?
7. Since the State courts considered exclusively the
issue of the Defendant’s “immunity” under the State
law, was there no “issues” to transfer to the federal
courts

by

disregarding

Petitioner’s

constitutional claims under 42 U.S.C. § 1983?

iii

civil

and _

LIST OF PARTIES
Names of some of the parties appear in the caption of
the case on the cover page.

Mentioned above Judges

were involved in the case in which original Defendants
were Dover Police Officer, Dale Boney, and State Farm
Mutual Automobile Insurance Co., but the transfer case
and

this

Petition

involves

only

the

Defendant-

Respondent, Officer Dale Boney.

CORPORATE DISCLOSURE STATEMENT
Pursuant to the Supreme Court Rule 29.6 the petitioner
states that she is not an incorporated entity or publicly
traded company, nor she is a parent, subsidiary, or an
affiliate of a publicly traded company, and, therefore,
there is no publicly traded company owning 10% or more
of the corporation’s stock involved in this case on the
part of the petitioner.
LIST OF ALL PROCEEDINGS
•

Nina Shahin v. Dover Police Officer Dale Boney, C.A.

iv

No.: CPU5-14-000682, Delaware Court of Common
Pleas in and for Kent County, judgment entered Apr.
13, 2016.
• Nina Shahin v. Dover Police Officer Dale Boney, C.A.
No. 2014-CU-514000682, Court of Common Pleas in
and for Kent County, judgment entered Jul. 19, 2016.
• Nina

Shahin

v.

Dale

Boney

and

State

Farm

Automobile Insurance Co., C.A. No. K17A-12-004 NEP,
judgment entered Jun. 6, 2018.
• Nina Shahin v. Dover Police Officer Dale Boney and
State Farm Automobile Insurance Co., C.A. No. K17A12-004 NEP, judgment entered on Jul. 17, 2018.
• Nina Shahin v. Dover Police Officer Dale Boney, C.A.
No. K17A-12-004, judgment entered on Feb.26, 2019.
• Nina Shahin v. Dale Boney, et al., US District Court
for the District of Delaware, No. 17-413-LPS, judgment
entered on Mar. 13, 2018.
• Nina Shahin v. Court of Common Pleas of the State of
Dale Boney et al., US Court for the District of Delawa­
re,^. 17-413-LPS, judgment entered on Mar. 12, 2019.
• In Re: Nina Shahin, Third Circuit Court of Appeals,
No. 19-1682, judgment entered on May 2, 2019.
• Nina Shahin v. Dale Boney, Dover Police Officer et al.,
Third Circuit Court of Appeals, No. 19-1829, judgment
Entered on Sep. 11, 2019.

s

TABLE OF CONTENTS
Pages
I. Orders and Opinions Below

2 - 4

II. Statement of Facts

4-36

A) Basic Underlying Facts Supported by
Documentary Evidence........................

4- 9

B) History of Judicial Process

9-36

•i

1)
2)
3)
4)
5)

l

Delaware Court of Common Pleas ....
Appeal to the Delaware Superior Court
Appeal to the Delaware Supreme Court
Process in the US District Court........
Third Circuit Court of Appeals ........
a) Petition for Writ of Mandamus
.«.
b) Petitioner’s Challenge to the Judge
Of the US District Court Remand of
Her Case to the State Court.......

9 -22
22-27
27
27-30
30- 36
30 - 33

33 -36

III. Statement of Issues Presented

36 -47

IV. Statement of Relief Sought

47-48

V. Reasons Why Writ Should Issue

48 - 50

VI. Appendices
Attached hereto are Appendices and incorporated by
reference herein from A through T, in which contained
orders, opinions, and other documents set forth as
indicated in the Index.

vi

TABLE OF AUTHORITIES CITED
Pages

CASE LAW
U.S. Supreme Court
Collins v. City of Harker Heights, Texas,
503 U.S. 115 (1992)....................................

46

Hafer V. Melo, 112 S.Ct. 358 (1991)

14

Monell v. Dept, of Social Services of
New York, 436 U.S. 658 (1978)........

45

Monroe v. Pape, 167 U.S. (1961)

13

Owen v. City of Independence, MO,
445 U.S. 621 (1980)..........................

45

United States v. Classic, 313 U.S. (1941)....

13

Shamrock Oil & Gas Corp. v Sheets,
313 U.S. 100 (1941)............................

37

Van Dusen v. Barrak, 376 U.S. 612,

84 S. Ct. 805, 11 L. Ed. 2d 945 (1964)

47

Other Courts
Auld v. Auld, 553 F.App’x 807
(10th Cir. Jan 29, 2014)........ .

42

Anderson v. Toomy, L.P., 2008 WL 4838139
(D. Utah Nov. 4, 2008)...,...............................

43

W.R. Berkley Corp. v. Niemela, Slip Copy,
2017 WL 4081871 .........................................

38, 39

vii

Blackbird Tech. LLC, d/b/a Blackbird
Technologies v. Tuffstuff Fitness International,
Inc. and the Gym Source, Inc. Ci.A.
No. 16-733-GMS............................................
38
Birla v. New Jersey Board of Nursing,
2013 U.S. Dist. LEXIS 70275 ..............

14

Gross v. Deberardinis, 722 F. Supp. 2d 532
(D.Del. 2010)..................................................

37

Jumara v. State Farm Ins., Co.,
55 F.3d 873 (3d Cir. 1995)......... ................. .

38, 39

Smart Audio Techs., LLC v. Apple, Inc.,
No. 12 134-GMS, 910 F. Supp.2d 718,
2012 WL 5865742 ....................... ...............

38, 39

Shuttle v. Armco Steel Corp.,
431 F.2d 22 (3d Cir. 1970).............................

47

STATUTES AND RULES
United States Constitution
Amendment XIV

26

Amendments IV, VI, VIII, and XIV

49

United States Code:
15U.S.C. §1691e .....

12, 13

18 U.S.C. § 1512(c)(1).

9, 36

18 U.S.C. § 3771(d)(3)

33
viii

28 U.S.C. § 1331

38

28 U.S.C. § 1404(a)

38

28 U.S.C. § 1441(a)

36

28 U.S.C. § 1443

40

28 U.S.C. § 1446(a)

29, 36

28 U.S.C. § 1446(b)

29, 36, 40

28 U.S.C. § 1447(d)

33

28 U.S.C. § 1651 (a)

1, 47

42 U.S.C. § 1983

's

13, 15, 17, 27, 28, 42, 43, 44, 45, 48
48

42 U.S.C. § 1985
Delaware Code

10 Del.C. § 1902

17, 45

10 Del.C. § 4010

11

11 Del.C. § 1269

8

11 Del.C. § 1502(5), (9).

9

21 Del.C. § 2118

25

OTHER SOURCS
Rules of the Supreme Court of the United States
1

Rule 20
ix

s

Federal Rules of Appellate Procedure
Rule 12(b)(6)

28

Third Circuit Rules of Procedure (LAR)
Rule 21.1(b)

33

Delaware Court of Common Pleas Rules of Civil
Procedure
Rule 19(a)(l)-(2)............................................

21

Delaware Court of Common Pleas kules of
Criminal Procedure
Rule 44(d)

24

CITATIONS OF THE OPINIONS AND ORDERS
ENTERED IN THE CASE
United States Court of Appeals for the Third Circuit
Order of 09/11/2019
“To the extent that Shahin removed her action pursuant
to 28 U.S.C. § 1441, we lack jurisdiction to review the
District Court’s order remanding the matter to state
court or denying reconsideration because the District
court remanded for lack of subject matter jurisdiction.
Shahin has not shown that she has been “denied or
cannot enforce [her] specified federal rights in the state
courts,” Davis v. Glanton. 107 F.3d 1044, 1050 (3d Cir.
1997) (quotation marks omitted), as is necessary to
remove under § 1443.” (Appendix C, page 2)

x

t

United States Court of Appeals for the Third Circuit
Opinion and Judgment in the Petitioner’s Petition for
Writ of Mandamus of 05/02/2019
However, in this case, Shahin is seeking only to advance
her civil actions. ...Accordingly, Shahin has failed to
demonstrate a right to relief under CVRA.1

1 Shahin does not challenge the District Court’s remand orders, and
we therefore do not consider whether we would have jurisdiction

over such a challenge. See generally In re Fed.-Mogul Glob., Inc.,
300 Fr.3d 368, 388 (3d Cir. 2002)

(Appendix E, pages 4-5) NOTE: This decision was
entered on 05/02/2019 and the appeal in this case filed
with that Court on 04/11/2019 (sic!)
US District Court for the District of Delaware
Memorandum entered on 03/12/2019
“Plaintiffs displeasure with this Court’s ruling does not
Plaintiff s
meet the requisites for reconsideration,
motions fail on the merits because she had not set forth
any intervening changes in the controlling law; new
evidence; or clear errors of law or fact made by the court
in its two orders to warrant granting reconsideration.
See Max’s Seafood Cafe, 176 F.3d at 677. Nor does she
address the fact that her claims were fully adjudicated
in State Court. Nonetheless, once again the Court has
considered the filing of the parties and the evidence of
record. Plaintiff has failed to demonstrate any of the
grounds to warrant reconsideration. For these reasons,
the motion will be denied.”
(Appendix G. page 3)
Delaware Supreme Court
Decision entered on 02/26/2019
xi

“The complaint arose out of a traffic ticket that Shahin
received from Officer Boney when Shahin was involved
in a minor traffic accident in the parking lot of a grocery
store in Dover. ...Upon de novo review, we find no error
in the Court of Common Pleas’ dismissal of the
complaint against Officer Boney for failure to state a
claim, and we find no error in the Court of common
Pleas’ denial of Shahin’s Motion to alter or amend the
judgment. Shahin’s complain did not allege that Officer
Boney caused personal injury, property damage, or
death. For that reason, officer Boney was immune from
liability under the county and Municipal Tort Claims
Act. (10 Del.C. § 4011(c)).”
(Appendix H, pages 2 and 4)
Delaware Superior Court
Order entered on 06/06/2018
“Plaintiff-Below/Appellant Nina Shahin (hereinafter
“Appellant”), appeals from an order of the Court of
Common Please (hereinafter the “CCP”). In that order
the CCP sranted denied Appellant’s Court of Common
Pleas Civil Rule 60(b) motion for relief. This Court find
no merit to Appellant’s appeal and affirms the CCP’s
order.
The record reflect that on September 3, 2013, Dover
Police officer Dale Boney (hereinafter “Appellee’) issued
Appellant a traffic citation in connection with a traffic
accident in a grocery store parking lot. “
(Appendix K, pages 1-2)
US District Court for the district of Delaware
Memorandum Opinion entered on 03/13/2018
“Shahin’s
removal
fails
for . a , number
of
reasons....Fourth, the Court of Common Pleas construed
Shahin’s Complaint (see D.I. 19-1 as raising a civil tort
xii

action finding no claim of violation of federal law
pursuant to 42 U.S.C. § 1983, and gave no weight to
Shahin’s argument in that regards.”
(Appendix M, pages 8-9)
Delaware Court of Common Pleas in and for Kent county
Court’s decision entered on 07/19, 2016
“The Court disregarded the plaintiffs 42 U.S.C. § 1983 >
claim because it was improper and outside the scope of
the court’s Order....
Finally, the Court wishes to address the plaintiffs
request to transfer the case to the United States District
court for the District of Delaware pursuant to 10 Del.C.
§1902. (Removal of actions from courts lacking
jurisdiction) In threatening and disrespectful language,
the plaintiff demands transfer of the case “to avoid
accusation of violating the Plaintiffs constitutional
rights of ‘due process, and ‘equal protection;’ because of
his [the Court’s] professional dishonesty and collusion
with professional attorney representing Defendants and
bias and discrimination against' the national minority,
pro se litigant [sic].” The plaintiffs request is denied.
The plaintiffs claim has been adjudicated and based on
the fact of the complaint and the law, the court had
subject matter jurisdiction over the plaintiffs claim.
Furthermore, the plaintiff failed to follow the proper
procedure for bringing her claim in federal court.
Therefore, the request must be denied.”
(Appendix R, pages 11-12)
JURISDICTION
Jurisdiction of this Court is invoked under provisions of - ^
28 U.S.C.A. § 1651(a).

xiii

CONSTITUTIONAL AND STATUTOTY
PROVISIONS INVOLVED
United States Constitution
Amendment VI ‘Rights to Fair Trial’
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Amendment XIV ‘Civil Rights’
Section 1. All persons born or naturalized in the United
States, arid subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
42 U.S.C. § 198t3 ‘Civil Action for Deprivation of
Rights’
Every person who, under color of any statute, ordinance,
regulation, custom or usage, of any State or territory or
the District of Columbia, subject, or causes to be
subjected, any citizen of the United states or other
person within the jurisdiction thereof to the deprivation
xiv

of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceedings for redress, except that in any action
brought against a judicial officer for an act or omission
taken in such officer’s juridical capacity, injunctive relief
shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the (
purposes of this section any Act of Congress applicable
exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
All Writs Act, 28 U.S.C.A. § 1651 ‘Writs’
(a) The Supreme Court and all courts established by Act
of Congress may issue all writs or appropriate in aid of
their respective jurisdictions and agreeable to the usage
and principles of law.
28 U.S. Code § 1404 ‘Change of Venue’
(a) For the convenience of parties and witnesses, in the
interest of justice a district court may transfer any civil
action to any other district or division where it might
have been brought or to any district or division to which
all parties have consented.
28 U.S. Code § 1441 ‘Removal of Civil Actions’
(a) GENERALLY.Except as otherwise expressly provided by Act of
Congress, any civil action brought in a State court of
which the district courts of the United States have
original jurisdiction, may be removed by the defendant
or the defendants, to the district court of the United

xv

States for the district and division embracing the place
where such action is pending.
28 U.S. Code § 1443 ‘Civil Rights Cases’
Any of the following civil actions or criminal
prosecutions, commenced in a State court may be re­
moved by the defendant to the district court of the
United States for the district and division embracing the
place wherein it is pending:
(1) Against any person who is denied or cannot enforce
in the courts of such State a right under any law
providing for the equal civil rights of,citizens of the
united States, or of all person within the jurisdiction
hereof;
(2) For any act under color of authority derived from
any law providing for equal rights, or for refusing to do
any act on the ground that it would be inconsistent with
such law.
Delaware Code, Title 11 ‘Crimes and, Criminal
Procedure,’ Chapter 5 ‘Specific Offenses,’ Section
1269 ‘Tampering with Physical Evidence; Class G
Felony.’
A person is guilty of tampering with physical evidence
when:
(1) Intending that it be used or introduced in an official
proceeding or prospective official proceedings the
person:
a. Knowingly makes, devises, alters or prepares false
physical evidence;
Delaware Code, Title 11 ‘Crimes and Criminal
Procedure,’ Chapter 15 ‘Organized Crime and
Racketeering,’ Section 1502 ‘Definitions,’

xvi

The following words, terms and phrases, when used in
this chapter, shall have the meaning ascribed to them
in this section, except where the context clearly
indicates a different meaning:
(9) “Racketeering” shall mean to engage in, to attempt
to engage in, to conspire to engage in or to solicit, coerce,
or intimidate another person to engage in:
a. Any activity defined as “racketeering activity” under
18 U.S.C. § 1961(1)(A), (1)(B), (1)(C) or (1)(D); or
b. Any activity constituting any felony which is
chargeable under the Delaware Code or any activity
constituting a misdemeanor under the following
provisions of the Delaware Code:
10. Chapter 5 of Title 11 relating to tampering with
jurors, evidence and witnesses;
3. 18 U.S.C. § 1512 ‘Tampering with a witness,
victim, or an informant’
(c) Whoever corruptly (1) Alters, destroys, mutilates, or conceals a record,
document, or other object, or attempts to do so, with the
intent to impair the object’s integrity or availability for
use in an official proceeding;
(h) There is extraterritorial Federal jurisdiction over an
offense under this section.
Shall be fined under this title or imprisoned not more
than 20 years, or both.
Shamrock Oil & Gas Corp. v. Sheets, 313 U.S. 100
(1941)
[Footnote 2]
xvii

See H.Rept. No. 1078, 49th Cong., 1st sess., p.l”
“The next change proposed is to restrict the right to
remove a cause from the State to the Federal court to
the defendant. As the law now provides, either plaintiff
This was an
or defendant may remove a cause,
innovation on the law as it existed from 1789 until the
passage of the act of 1975.”
“In the opinion of the committee, it is believed to be just
and proper to require the plaintiff to abide his selection
of a forum. If he elects to sue in a State court when he
might have brought his suit in a Federal court, there
would seem to be, ordinarily, no good reason to allow
him to remove the cause. Experience in the practice
under the act of 1975 has shown that such a privilege is
often used by plaintiffs to obtain unfair concession
compromises from defendant who are unable to meet the
expenses incident to litigation in the Federal courts
remote from their homes.”
“The committee, however, believe that, when a plaintiff
makes affidavit that, from prejudice or local influence,
he believes that he will not be able to obtain justice in
the State court he should have the right to remove the
cause to the Federal court. The bill secures that right to
a plaintiff.”

xviii

IN THE SUPREME COURT OF THE UNITED
STATES
PETITION FOR WRIT OF PROHIBITION AND/OR
WRIT OF MANDAMUS
Petitioner, Nina Shahin, is therein applying pursuant to
Section 1651, Title 28, United States Code, Rule 21(a) of
the Federal Rules of Appellate Procedure, and Rule 20 of
the Supreme Court of the United States Rules of
Procedure for a Writ of Mandamus or, in the alternative,
for a Writ of Prohibition, directed to the above-named
respondents: Honorable Leonard P. Stark, Judge of the
US District Court for the District of Delaware and
Honorable Charles W. Welch, III, Judge of the Delaware
Court of Common Pleas (“CCP”) in and for Kent County.
In support of this application Petitioner states that she,
as a national minority (of Ukrainian national origin and
pro se litigant), was never able to enforce any provisions
of federal laws and especially antidiscrimination ones
that were supposed to protect her civil and constitutio­
nal rights even by filing numerous Petitions for Writ of
l

Certiorari with this Court (06-1334, 08-676, 09-9281, 0910032, 09-10505, 10-8580, 11-5563, 11-5564, 11-5565,
12-7103, 12-7105, 12-7106, 11-7107, 12-7337, 12-7338,
12-7339) or Petition for Writ of Mandamus with the
Third Circuit Court of Appeals and the Orders and
Opinions of the Courts (Federal and State) that denied
those rights in this particular case are provided below:
I.

Orders and Opinions Below:

1) On March 13, 2018, Respondent #1 duly made and
entered memorandum opinion and an order remanding
the case to the Delaware Court of Common Pleas in and
for Kent County for allegedly having no jurisdiction over
the case. Copy of that decision is presented in Appen­
dix M. Petitioner’s Motion for Reargument was denied
by that Respondent on March 12, 2019 and copy of that
decision is presented in Appendix G. Please note, that
the Respondent titled the case in that latter decision as
Nina Shahin v. Court of Common Pleas of the State of
Dale Boney et al. (page 1 of Appendix G)
2

2) Respondent # 2 in his decision of April 13, 2016
which he entered without any hearing on the motion
granted Defendant, Dale Boney’s, ‘Motion to Dismiss.’
Copy of that decision is presented in Appendix T.
Judge’s denial of Petitioner’s Motion to amend that
judgment and transfer the case to the US District Court
was made on July 19, 2016 and copy of that decision is
provided in Appendix R.
[x] For the case from the Third Circuit Court of Appeals:
•

Petitioner’s appeal to the Third Circuit Court of

Appeals was denied for alleged”lack of subject matter
jurisdiction” on September 11, 2019 and copy of that
decision is presented in Appendix C. Petitioner’s Peti­
tion for panel rehearing to that Court with evidence of
abuse of judicial discretion, denial of access to justice,
discrimination and corruption was ignored because
Petitioner proved in that Petition that the Judge who
signed the decision falsified and misrepresented the law
and precedent cited in the decision. Copy of that Petition
3

is provided in Appendix B. Instead, Clerk of Court
issued a certified copy of that Court’s Order one month
later, on October 24, 2019, with a power of “mandate.”
Copy of that letter is provided in Appendix A.
•

Third Circuit Court of Appeals Opinion and Judg­

ment was dated May 2, 2019, denying Petitioner’s Writ
of Mandamus. Copies of the documents in Appendix E.
[x] For the case from the Delaware Supreme Court:
On February 26, 2019, Delaware Supreme Court affir­
med decision of the Delaware Superior Court. Copy of
that decision is provided in Appendix H.
[x] For the case from Delaware Superior Court:
•

Court’s Order dated June 6, 2018 affirmed the

decision of the Court of Common Pleas. Copy of that
decision is in Appendix K.
II. Statement of Facts.
A) Basic Underlying Facts Supported by Docu­
mentary Evidence:
Facts necessary for understanding of the issues presen4

• f

ted by this application are as follows:
On September 3, 2013, Petitioner, Nina Shahin, after
shopping at Safeway grocery store in Dover, DE, located
at 190 John Hann Brown Road, in Dover, DE, started to
move her car out of the parking lot in front of the store
where her car was parked in the handicapped parking
spot. When she was almost out of her parking lot a car
operated by Cheryl Calicott-Trawick and located just
opposite of the Petitioner’s car started to move out and
hit the Plaintiffs car at the right rear end bumper.
When Petitioner got out and observed the accident it
became apparent to her that it was completely Ms.
Calicott-Trawick’s fault because she started to move her
car out without looking at her back mirror and hit the
Petitioner’s car.

But when the Petitioner asked her

what exactly she wanted Ms. Calicott-Trawick replied
that she wanted information about Petitioner’ insu­
rance. Petitioner replied that she had to call police and
get a report.

Since Petitioner’s car was blocking the
5

road Petitioner moved her car back into her parking
space. Ms. Calicott-Trawick’s car remained at the posi­
tion of the impact because the car hardly moved out of
the parking spot.

When police officer, Dale Boney,

arrived, Petitioner gave him all her documents and
police officer disappeared in the store.

By that time

Petitioner’s husband whom she called immediately after
the accident arrived before Officer and was a witness of
everything happened after the Officer’s arrival. When
the officer was still in the store, Ms. Calicott-Trawick
came out and moved her car back into her parking space
as if it had never moved out. When police officer came
out of the store he gave a parking violation ticket to the
Petitioner although it was completely Ms. CalicottTrawick’s fault. During court hearing at the Justice of
the Peace Court Petitioner proved that police officer’s
report was falsified by presenting fraudulent evidence
because Petitioner’s car had damages not on the left
side, as report indicated, but on the right side, and,
6

therefore, the officer’s sketch of the accident was
completely fraudulent. Court found the Petitioner “not
guilty.” State Farm Mutual Automobile Insurance
Company (“State Farm”) accepted police officer’s report
as

true

and

even

conducted

recorded

telephone

interview with an ‘eye witness’ (Nicki Walls, Safeway
store employee) who provided the same fraudulent
information during that interview that she had provided
to the Officer Dale Boney and later failed to appear in
the Court’s hearing thus committing a crime of perjury.
State Farm continued to provide fraudulent information
including mixing up the Petitioner’s car (which they
insured) with Ms. Calicott-Trawick’s car (insured by All
State Insurance Company) presenting a photo of that
car as the Petitioner’s.

On one year anniversary (i.e.,

09/03/2014) of the accident Petitioner filed her lawsuit
against Officer Dale Boney and State Farm in the Court
of Common Pleas in and for Kent County. During court
proceedings attorney representing State Farm who was
7

also a member of the Delaware State Bar Association
Executive Committee (Reneta L. Green-Streett) provi­
ded fraudulent information about Petitioner’s insurance
coverage and after Petitioner brought that fact to the
Court’s attention and filed Motion for Sanctions against
her was replaced with a President of the Bar Executive
Committee, Mirapda D. Clifton.

.

,

Officer’s actions in falsifying evidence fall under the
following provisions of the Delaware and federal laws:
1. Delaware Code, Title 11 ‘Crimes and Criminal
Procedure,’ Chapter 5 ‘Specific Offenses,’ Section
1269 ‘Tampering with Physical Evidence; Class G
Felony.’
A person is guilty of tampering with physical evidence
when:
(1) Intending that it be used or introduced in an official
proceeding or prospective official proceedings the
person:
a. Knowingly makes, devises, alters or prepares false
physical evidence;
2. Delaware Code, Title 11 ‘Crimes and Criminal
Procedure,’ Chapter 15 ‘Organized Crime and
Racketeering,’ Section 1502 ‘Definitions,’
The following words, terms and phrases, when used in
8

this chapter, shall have the meaning ascribed to them in
this section, except where the context clearly indicates a
different meaning:
(9) “Racketeering” shall mean to engage in, to attempt
to engage in, to conspire to engage in or to solicit, coerce,
or intimidate another person to engage in:
a. Any activity defined as “racketeering activity”
under 18 U.S.C. § 1961(1)(A), (1)(B), (1)(C) or
(1)(D); or
b. Any activity constituting any felony which is
chargeable under the Delaware Code or any
activity constituting a misdemeanor under the
following provisions of the Delaware Code:
10. Chapter 5 of Title 11 relating to tampering with
jurors, evidence and witnesses;
3. 18 U.S.C. § 1512 ‘Tampering with a witness,
victim, or an informant’
(c) Whoever corruptly (1) Alters, destroys, mutilates, or conceals a record,
document, or other object, or attempts to do so, with the
intent to impair the object’s integrity or availability for
use in an official proceeding;
(h) There is extraterritorial Federal jurisdiction over an
offense under this section.
Shall be fined under this title or imprisoned not more
than 20 years, or both.
B) History of Judicial Process.

9

1) Delaware Court of Common Pleas.
The lawsuit at the Court of Common Pleas in and for
Kent County was filed on this accident anniversary on
September 3, 2014. On September 17, 2014, attorney re­
presenting the Defendant, Officer Dale Boney, Daniel A.
Griffith,

filed his ‘Motion to Dismiss’ Petitioner’s

complaint.

Mr. D.A. Griffith made the main point in

that Motion that the Petitioner “is a frequent pro se liti­
gant” which apparently according to his logic should
have been the reason to deny all Petitioner’s claims.
It is important to make this point because
Petitioner in her “frequent litigation” attempted
to defend her civil and constitutional rights in a
pattern of systematic discrimination and violation
of her civil and constitutional rights to no avail in
the Delaware corrupt judicial system that is
screwed

against

minorities,

the

poor,

and

especially pro se litigants to protect professional
attorneys whose interests and professional mis10

conduct are always defended and covered up by
presiding judges regardless

of the material

underlying facts or rules of law, precedent and
procedure.
The second point of that Motion was that Officer Dale
Boney was immune from claims for damages under
provisions of Delaware County and Municipal Tort
Claims Act, 10 Del.C. § 4010 et seq. claiming also that in
spite of the fact that the Officer’s duties were performed
“with wanton negligence or willful and malicious intent”
he did not personally caused “property damage, bodily
injury or death” and, therefore, is completely immune
from any tort claims irrespective of felonies he
committed by falsifying evidence.
On September 23, 2014, Petitioner filed her ‘Objections’
to that Motion specifically indicating that her charac­
terization by professional attorney as “frequent pro se
litigant” was made with intent to insult and humiliate
Petitioner in a systematic pattern of harassment that
11

started by Dover Police in 2012 with her illegal arrest,
illegal incarceration, beatings and torture in prison as a
result of which she came out as a complete invalid
unable to walk.

In Exhibit A to that ‘Objections’ were

attached 47 photos of her injuries stretching from her
forehead to her toes all over her body, photos made by a
forensic nurse immediately upon Petitioner’s release
from prison.

Petitioner also proved with supporting

evidence actual lies and misrepresentations made by
another Defendant, State Farm, who even did not
understand which vehicle was Petitioner’s and which
they actually insured by mailing to her photos of the
other driver’s vehicle with the claim that it was hers.
On May 1, 2015 Mr. D.A. Griffith wrote a letter to the
Court urging the Court “to list the September, 2014
[Defendant’s] Motion to Dismiss Plaintiffs Complaint
for Disposition” with another insulting characterization
of the Petitioner’s complaint as “frivolous on its face and
subject.”
12

Only on July 31, 2015, (mailed to the Petitioner on
August 10, 2015) or eleven months after the lawsuit had
been filed presiding Judge, Honorable Charles W.Welch,
III finally acknowledged that there were “a number of
pleadings” in that case that needed to be considered
with a promise to schedule a hearing if it is necessary.
Then, on December 15, 2015, or fifteen months after the
lawsuit

had

been

filed,

Honorable

Judge

asked

Petitioner to provide additional arguments regarding
Officer’s

alleged

immunity

within

twenty

days.

Petitioner provided that response on December 29, 2015,
arguing that the Officer is liable to the Petitioner under
provisions of 42 U.S.C. § 1983. In particular, Petitioner
argued with reference to the decisions of the US
Supreme Court:
“In Monroe v. Pape, U.S. 167, 180 (1961), United States
Supreme Court held that acts performed by a police
officer in his capacity as a police officer are acts taken
“under color of law.” As the Supreme Court stated in
United States v. Classic, 313 U.S. 299, 326 (1941),
“[mjisuse of power, possessed by virtue of state law and
made possible only because the wrongdoer is clothed
13

S'

with the authority of state law, is action taken “under
color of state law.” While qualified immunity is
available to an official sued in his personal capacity,
there is no qualified immunity available to an official
capacity suit {see Hafer v. Melo, 112 S.Ct. 358, 361-62
(1991)
(personal
and
official
capacity
suits
distinguished). Plaintiff sued Dale Boney in his official
capacity as Dover Police Officer and not in his
individual capacity as just Dale Boney, so he has no any
qualified or unqualified immunity whatsoever.”
Attorney, D.A. Griffith’s ‘Reply’ to that Petitioner’s
‘Answer’ was filed on January 26, 2016. In that
document attorney made the following points:
•

Petitioner did not make any valid claims under

provisions of federal law because she did not “set forth
which right, privilege, or immunities the Defendants are
alleged to have violated” and failed to “give notice of the
claim and the grounds upon which it rests.” See Birla v.
New Jersey Board of Nursing, 2013 U.S. Dist. LEXIS
70275 (decided May 16, 2013, D.N.J. 2013).
•

If the Petitioner would have “asserted a violation of

14

federal law, Defendants would have been entitled to
removal of this action to the United States District
Court for the District of Delaware.”
•

Even if the Petitioner had a valid claims under 42

U.S.C. § 1983 they would have been barred by a twoyear statute of limitations. Petitioner, therefore, facing
dismissal of her tort claim “seeks to recast her Com­
plaint based on a time-barred theory.”
In response Petitioner would like to provide the
following comments to those points: 1) Petitioner did not
mention in her Complaint either tort theory or civil
rights under 42 U.S.C. § 1983. She mentioned that she
was a victim of a crime committed by police officer under
“color of law” which is a priori a civil rights claim.
Moreover, no any pretrial in this case had ever taken
place

nor

the

required

‘Pretrial

Worksheet

and

Stipulation’ form to clear all facts, issues of law,
presentation of evidence and existence of witnesses had
ever been presented to the Petitioner which is another
15

evidence that the ‘due process’ and ‘equal protection’
constitutional rights were grossly violated by the
presiding Judge. As far as the statute of limitation is
concerned, it is only the evidence that the presiding
Judge did absolutely nothing in this case for almost two
years apparently with the purpose to make Petitioner’s
claims under civil rights statute subject to those time
barring claim although time of her filing a lawsuit in the
CCP was timely.

Moreover, in his decision Judge

claimed that because of that delay Petitioner did not
suffer any negative consequences (Sic!) Honorable Judge
issued his decision on April 13, 2016 (copy is provided in
Appendix T).

In that decision Judge falsified under­

lying material facts including claim that “Boney falsified
a witness because a witness failed to appear at the
Justice of the Peace Court hearing” or that the
Defendant committed a felony and granted his Motion to
Dismiss under alleged immunity provided by the County
and Municipal Tort

Claims act with claim that
16

Petitioner’s complaint “contained no claim of a violation
of federal law pursuant to 42 U.S.C. § 1983.”

Fact of

falsifying evidence by police officer is a violation of civil
rights and act of discrimination against a national
minority which the Judge intentionally did not want to
see! In view of those violations and time-barred claims
by attorney, Petitioner on August 19, 2016, filed her
Motion-“Election” for initiation of the process to transfer
the case to federal court for the District of Delaware. In
his letter dated January 23, 2017 Honorable Judge
Charles W. Welch, III wrote the following:
“The Court disregarded the plaintiffs § 1983 claim be­
cause it was improper and outside the scope of the
Court’s order (and case). Next, the plaintiff requested to
transfer the case to the United States District Court for
the District of Delaware pursuant to 10 Del.C. § 1902.
The Plaintiffs request was denied due to the fact that
the plaintiffs claim had been adjudicated and the
plaintiff failed to follow proper procedure for bringing a
claim in Federal Court.”
On April 8, 2017 Petitioner filed at the US District
Court a Request for transfer of the case from Court of
Common Pleas to that Court. On July 27, 2017 Mr. D.A.
17

Griffith wrote a letter to the Judge of that Court titling
the case as Nina Shahin v. City of Dover and making
false claims that 10 Del.C. § 1902 applies only to
transfers of litigation among Delaware state courts
without any supporting evidence that the Delaware
legislature intended that provision for transfers due
subject matter jurisdictional problems be limited only to
Delaware courts.

Then he cited Hooker-Feldman

doctrine to the Petitioner’s case although that doctrine
did not apply to her case.
In view of all falsifications and lies submitted to the
Court by the

attorney representing State

Farm,

presiding Judge in his letter of March 29, 2017
requested Petitioner to provide additional information
regarding authenticity of documents presented by the
attorney.

In view of his acknowledgement that the

attorney

provided

wrong

information

Petitioner to clarify different issues.

he

asked

In her response

dated April 11, 2017 Petitioner expressed mistrust to
18

the Judge’s actions because of his failure to sanction
attorneys for their lies to the court and allowing
substitution of counsel for State Farm. Copy of the letter
was mailed also to the Delaware Bar Association in view
of the fact that both State Farm attorneys were
members of its Executive Committee with a request to
clarify those attorneys’ compliance with the Delaware
Lawyers Rules of Professional Conduct but she has
never received a response.

Judge, though, feeling

insulted, mandated Petitioner to “Shaw Cause” for her
use of “abusive” language towards the Judge. His letterdemand was dated April 13, 2017, mailed five days later
but accepted by USPS on April 19, 2017 and contained
mandate of a 20-day response. Petitioner was at that
time overseas and responded upon her arrival on May
10, 2017 and demonstrated “gross violations of her
constitutional rights” by the presiding Judge. Since the
Judge indicated that Petitioner failed to initiate a pro­
per procedure for transfer of the case to federal court
19

but did not describe what that “proper procedure” was
Petitioner filed her Motion-“Election” for initiation of
that process in which she described with reference to the
law and precedent all the legal background for the
transfer including references to the decisions of the US
Supreme Court (copy of the Motion is in Appendix Q).
And finally, after all violations of the rules of the CCP
Court (‘i.e., timely, ‘Answer’ and production of wrong
documents) by the original attorney representing State
Farm it was established that the Petitioner did not have
insurance coverage for the damages caused by the other
party to accident. In such circumstances the insurance
of that party should have been involved as the one
providing mandatory insurance for covering damages
caused by that party. That insurance company was All
State Insurance Co. and Petitioner on April 11, 2017
filed Motion for Joinder of that Insurance as ‘Indispensible Party.’

In his June 12, 2017 communication

presiding Judge made a complete mess of the Rule 19(a)
20

of CCP Rules of Civil Procedure.
demonstrates

either

his

His conclusion

complete

professional

incompetence or intentional disregard of the Petitioner’s
claims, material facts of the case, and the applicable
rules of law and procedure.
“In this case, you claim that State Farm breached its
insurance agreement with you it denied your claim for
reimbursement for damage to your automobile. As the
only parties to that agreement are already parties in
this matter, the Court is fully capable of granting
complete relief without the necessity of joining
19(a)(1).
additional parties pursuant to Rule
Furthermore, Rule 19(a)(2) is inapplicable in this
instance because All-State Insurance Company is not
“claim[ing] an interest relating to the subject of the
action...2 (reference to Ct. Com. PI. Civ. R. 19(a)(2))
Rather, it appears that you are seeking to initiate new
litigation against All-State entirely through your case
for breach of contract with State Farm. Such an action
would not be the appropriate joinder of a party.”
There was no any breach of contract with State Farm
and Petitioner never made such a claim.

State Farm

made fraudulent claims about the circumstances of the
accident following the lead of the Officer Boney and
there was no any contractual relationship in those
communications but misunderstanding, negligence and
21

fraud committed by professional attorney, who originnally represented State Farm. Since it was eventually
established that Petitioner had no coverage for such
damages caused by other party, that party’s insurance
had legal obligation to pay because of mandatory
provisions of any auto insurance policy to cover damages
caused by that party. Yet, under wrong pretences the
Judge denied that joinder of the insurance that had
legal responsibility to pay claiming “breach of contract
with State Farm” which was pure fraud.
2) Appeal to the Delaware Superior Court.
On December 18, 2017 Petitioner filed her appeal with
the Delaware Superior Court and on February 12, 2018
she filed her Opening Brief. In her ‘Argument’ section
•r

•

Petition argued 3 points: 1) Violations of her civil rights;
2) Collusion of the CCP Judge with professional
attorneys to cover up their misconduct; and 3) Whether
actions of attorneys and the judge fell under provisions
of crime of ‘racketeering.’ Petitioner in that Brief
22

provided ample documentary evidence of systematic
harassment by Dover Police starting with her 2012
illegal arrest, illegal incarceration, beatings and torture
in prison; 2013 falsification of evidence by Officer Dale
Boney;

2014 staged “accident” in which Dover Police

officer (Katelyn Spoon-Roth) came to the Petitioner’s
house and threatened her with arrest, and in the court
hearing jury of 11 cops in absence of any evidence (even
police report was denied to them) found Petitioner
“guilty;”

after that 2013 parking accident and 2014

staged “accident,” Petitioner’s car became a bull’s eye for
Dover Police. When the judicial process of that June
2014 staged “accident” was dragged

through every

month of 2014 year (August 26, September 10, October
7, November 10, and December 10, 2014), on December
10, 2014 hearing when Petitioner was in the courtroom
Dover police cited her for violating handicapped parking
with the citation fixed to the wiper on a windshield
across from a handicapped permit hanging from a back
23

view mirror; In that 2014 “accident” appointed to her
case public Defender (Stephanie C. Blaisdell) pressured
Petitioner to accept all fraudulent charges and lied to
her about the availability of a subpoenaed

evidence

(video tape from a Verizon store that had 360 degree
camera near the place of the staged “accident.”) When
Petitioner presented evidence to the Judge (Anne
Hartnett Reigle) about that lie Petitioner was stripped
of the Defender all together in violation of the provisions
of Rule 44(d) of the, CCP Rules of Criminal Procedure
and the jury was selected exclusively of the cops who
were more than 50% in the jury pool(?.!) later the Judge
fraudulently claimed that Petitioner did not object that
jury although Petitioner specifically asked the Judge to
record her objections and the Judge assured her that her
objections were recorded. To prove her lies Petitioner
had to pay $ 900 for the transcript, money she did not
have and the next stage when the Judge usually denies
access to the tape of recording claiming that the case
24

had already been adjudicated; fifth incident of Dover
Police harassment occurred during forcible and illegal
“probation” imposed by the Judge, Anne Hartnett
Reigle, in that 2014 staged “accident” because that
section of the Motor Vehicle Code does not provide for
any probation.

But per terms of that probation

Petitioner was obligated to report any case of her
contact with police. In March of 2015 Petitioner after
shopping at local ACME store was stopped by Dover
Police officer on suspicion of burglary at that store and
had to report that incident to probation officer.

The

next month Dover Police Officer, J. Willson, gave her a
ticket for allegedly not yielding to emergency vehicle.
The only people who violated that particular law (i.e., 21
Del.C. §2118) were the driver of the emergency vehicle
who approached the congested intersection without
siren and Petitioner could not see or hear that vehicle
and jumped into the intersection luckily avoiding
collision and the Police Officer himself who jumped the
25

red light to give her citation. Documentary evidence to
support all those cases of harassment that violated her
civil right guaranteed by XIV Amendment of the United
States Constitution was provided in 28 Exhibits.
Professional attorney who substituted original attorney,
Daniel A. Griffith, after Petitioner added another
Defendant (i.e„ City of Dover when Mr. D,A. Griffith in
his. communication with District Court titled the case as
Nina Shahin v. City of Dover) Scott G. Wilcox,
representing Officer Dale Boney failed to . file his
‘Answering Brief by the due date because of excusable
negligence” which was, of course, excused by the
presiding Judge, Noel Eason Primos. Judge’s decision
dated 06/06/2018 is provided in Appendix K and is a
perfect example of how Delaware Judges falsify material
underlying facts.

The entire description of the

Defendant’s felony of falsifying evidence is couched in
the following words: “The record reflects that on
September 3, 2013, Dover Police officer Dale Boney
26

(hereinafter “Appellee”) issued Appellant a traffic
citation in connection with a traffic accident in a grocery
store parking lot. (Sic!) Implication of that statement is
that the Officer was right in giving the citation.
3) Appeal to the Delaware Supreme Court.
On August 16, 2018 Petitioner filed her appeal to the
Delaware Supreme Court.

Decision of that Court is

attached in Appendix H. The same story was repeated
as in the Superior Court.

Judge who signed the

decision (Karen Valihura) described the parking lot
accident as “minor traffic accident” (apparently, because
of the Petitioner’s error) and again shielded the
Defendant,

Officer

Boney,

from

liability

under

provisions of County and Municipal Tort Claims. There
is no even mentioning of the Petitioner’s claims under
civil rights provisions of 42 U.S.C. § 1983!
4) Process in the US District Court for the District of DE.
On April 8, 2017 Petitioner filed a ‘Request’ to transfer
the case to the US District Court for the District of
27

Delaware by paying $ 400 transfer fee. Mr. Daniel A.
Griffith filed his Motion to Dismiss Petitioner’s ‘Request’
for transfer under Fed. R. Civ. P. 12(b)(6) claiming that
Petitioner failed to raise any federal claims in her
complaint and the case is subject to Rooker-Feldman
doctrine and the officer is immune under provisions of
Delaware County , and Municipal Tort Claims Act, 10
Del.C. § 4010 et. seq. Because all claims professional
attorney submitted to the Court.were false or fraudulent
Petitioner filed Motion for Sanctions against the
attorney.

Moreover, in the attorney’s communications

with the Court dated 07/27/2017 attorney titled the case
as Nina Shahin v. City of Dover. In view of that fact
Petitioner on 08/07/2017 filed Motion for Leave of Court
to Amend her Original Complaint to add a new
Defendant - City of Dover - with charges against that
Defendant under provisions of 42 U.S.C. § 1985. After
those events Mr. D.A. Griffith was replaced with
another attorney, Scott G. Wilcox, (usual process tp
28

invalidate Petitioner’s Motion for Sanctions). Decision
of the Judge of the District Court is presented in
Appendix M and his main argument in that decision
(although numbered as fourth) was that Petitioner did
not raise civil rights claims in her original Complaint
but only tort claims.

Other Judge’s legal arguments

were the same as in the case appealed to this Court in
March of that year (i.e., Shahin v. Sam’s East., Co., et
al.): 1) removal statutes are construed narrowly and in
case of doubt should be remanded back to the State
court; 2) Removal by Plaintiff is not “contemplated by 28
U.S.C. §1446(a); 3) removal by Petitioner was beyond 30
days allowed by § 1446(b); 5) all defendants must agree
to the transfer which did not happen; 6) “there is no
claim against Boney to transfer.” These are the issues
that Petitioner would argue in this case as the most
important and misrepresented or even falsified by the
presiding Judge (as usual in Delaware court system in
the case of minorities, the poor, and pro se litigants.)
29

Petitioner filed her Motion for Reconsideration of that
decision and the Judge denied it on 03/12/2019 titling
the case Nina Shahin v. Court of Common Pleas of
the State of Dale Boney, et al., (Appendix G).
5. Third Circuit Court of Appeals.
Process in the Third Circuit Court of Appeals went
through two differences channels: a) Petition .for Writ of
Mandamus and b) Appeal of the decision of the US
District Court to the Third Circuit Court of Appeals,
a) Petition for Writ of Mandamus.
On March 26, 2019, when it was obvious to the Petition­
er that her civil and constitutional rights were violated
at all levels of judicial system and she was a victim of
crimes under circumstances that were criminal and
even

mafia-style

racketeering

(especially

in

the

Delaware Supreme Court with the Chief Justice induced
retaliation with award of attorneys’ fees to attorneys
who committed fraud) she submitted her Petition for
Writ of Mandamus Pursuant to 18 U.S.C. § 3771(d)(3)
30

‘The Crime Victims’ Rights Act’ with Appendix of
documents in Support of that Writ. The Writ was based
on different lawsuits filed by the Petitioner in State
courts and among them the latest against of City of
Dover for discrimination in real estate assessment,
Officer Dale Boney and Sam’s East., Inc. and Synchrony
Bank, cases in which Petitioner was deprived of any real
judicial process with discovery, questioning of witnesses
and competent and impartial evaluation of all evidence
by presiding Judges. The first case is the current case
and is closely related to the pattern of Dover Police
harassment that started in 2012 with Petitioner’s illegal
arrest, illegal incarceration, beatings and torture in
prison as a result of which she came out as a complete
invalid unable to walk. Petitioner’s charges included
felonies’ of ‘obstruction of justice’ and ‘racketeering’
committed by the presiding Judges, and ‘perjury’ and
‘fraud’ committed by professional attorneys. Those were
criminal acts for which nobody wanted to initiate
31

investigation or prosecution, but the Petitioner was a
victim.

Appendix to the Petition had documentary

evidence of complete corruption of the judicial system
including 47 photos of Petitioner’s injuries all over her
body from forehead to her toes made by a forensic nurse
after Petitioner’s release from prison, list of jury pool in
Petitioner’s criminal prosecution for “staged accident” in
which more than 50% of the jury were cops and for every
one. she removed from the jury prosecutor installed
another one because the pool was inexhaustible.
Petitioner provided evidence of the Honorable Judge,
Anne

Hartnett

Reigle

complete

dishonesty

and

incompetence with intentional obstruction of justice in
that particular case. Appendix also included original of
the Petitioner’s Petition for Writ of Certiorari to this
Court against PNC Bank (place where Petitioner was
illegally arrested in 2012) filed on July 24, 2017 but
declined for recording due to missing, deadline for
submission and returned back to the Petitioner.
32

All

that

evidence

proved

multiple

criminal

offences

committed by different State officials from police officers
to

judges

at

all

level

of

State

investigational.

prosecutorial, and judicial systems. In the processing of
that Petition requirements of the Third Circuit Court
L.A.R. 21.1 (b) (notification of the US Attorney) was
disregarded and the 5-day requirement of 18 U.S.C.
§3771(d)(3) violated. Third Circuit Court of Appeals
decision dated 05/02/2019 (well after 5-day requirement)
is presented in Appendix E.
b) Appeal of the District Court Decision to the
Third Circuit Court of Appeals.
Appeal in this case to the Third Circuit Court of Appeals
was made on April 11, 2019.

On April 26, 2019

Administrative Assistant of the Court, Maria Winans,
indicated in her communication that

“Under 28 U.S.C.

Section 1447(d)(enclosed), an order remanding a case to
the state court from which it was removed is not
reviewable on appeal or otherwise.” Petitioner filed her

33

‘Objections’ to that communication with the Court on
05/06/2019 (Appendix D). On 09/11/2019 Third Court
of Appeals dismissed Appellant’s appeal “for lack of
subject matter jurisdiction” (Appendix C). Petitioner
filed her Petition for Panel Rehearing (Appendix B)
that specifically indicated that the decision of the Court
of Appeals was nothing short of abuse of judicial
discretion, denial of. access to justice to a national
minority and pro se litigant, discrimination and, cor­
ruption because reference to the cited law. was
misrepresented and/or falsified. Third Circuit Court of
Appeals has never considered that Motion because the
Court had no arguments to justify those falsifications.
Instead, on 10/24/2019, Court Clerk issued a certified
copy of the same decision to be treated as a MANDATE
which was clear evidence that the Court indeed abused
its discretion, was corrupt and discriminatory towards
national minority and pro se Petitioner. (Appendix A).
Petitioner’s complaints against professional attorneys to
34

the Delaware Bar Association were always dismissed
with claims that in her judicial cases such obligation is
vested with the presiding Judges who actually always
provided cover-up for misbehaving attorneys with usual
“substitutions

of

counsel.”

Petitioner’s

complaints

against presiding Judge to the Delaware Court on the
Judiciary were always dismissed because they were
related to her cases and the reason for dismissal was
always that Petitioner did not agree with the Judge’s
decision and she should have chosen a path of appeals
not complaints. As Petitioner clearly demonstrated her
appeals are futile in a system of permanent corruption
and collusion of presiding Judge with professional
attorneys. Characterization of Delaware court system is
well reflected in the Citizens for Pro-Business Delaware
advertisement printed in local newspaper (Delaware
State News) on October 27, 2019. (Appendix X) The
issue of denial of access to justice is especially acute for

35

minorities, the poor and pro se litigants as the
Petitioner.
III. Statement of Issues Presented.
1. Narrow Interpretation of Removal Statutes.
As Respondent # 1 presented in his ‘Memorandum
Opinion’ of March 13, 2018, number one issue was that
“removal statutes are construed narrowly and doubts
about removal are resolved in favor of remand.”

In this

case when the Dover Police Officer falsified evidence
and his actions are. considered as felony under
provisions of state and federal law,

18 U.S.C. § 1512

‘Tampering with a witness, victim, or an informant’
specifically indicates in subsection (h) that this felony
has exclusive federal jurisdiction.
2.

28 U.S.C. § 1446(a)
Defendants Only.

Limits

Removal

to

Honorable Judge Leonard P. Stark in his Memorandum
Opinion as number 2 issue claimed that under 28 U.S.C.
1441(a) the right of removal is afforded to the “defen-

36

dant” or “defendants” with reference to the case of Gross
V. Deberardinis, 722 F. Supp. 2d 532, 534 (D.Del. 2010).
Judge in this case skipped reference to the case of US
Supreme Court in Shamrock Oil & Gas Corp. v. Sheets,
313 U.S. 100, 104 (1941).

It is important to note that

this case of the US Supreme Court looked into the
history of the transfer provision going back to 18th
Century (“Judiciary Act of 1789”) with subsequent
modifications in 1867, 1875, and 1887.

The strict

interpretation of the Statute was introduced by Act of
1887, 24 Stat.552., Id. at 106.

But even that stricter

amendment had provision for the plaintiff to remove the
case to federal court if the plaintiff “had reason to
believe and did believe that, from prejudice or local
influence, he was unable to obtain justice in said State
court, the district court shall, on application of the other
party, examine into the truth of said affidavit and the
grounds thereof, and, unless it shall appear to the
satisfaction of said court that said party will not be able
37

to obtain justice in said State Court, it shall cause the
same to be remanded thereto...” Id., [Footnote 1] at 109.
Another Honorable Judge of the same US District Court
(Gregory M. Sleet) stated in his Memorandum Opinion:
“Under 28 U.S.C. § 1404(a), a district court has “broad
discretion to determine, on an individualized, case-bycase basis, whether the convenience and fairness
consideration weigh in favor of transfer.” Jumara v.
State Farm Ins. Co., 55 F,3d 873, 883.(3d Cir. 1995)1.
The court engages in a two-step inquiry,

It first

determines whether the action could have been brought
originally in the proposed transferee forum and then
asks whether transfer would best serve the convenience
if the parties and witnesses as well as. the interests of
justice. Smart Audio Techs., LLC v. Apple, Inc., No. 12-

1 Honorable Judge Gregory M. Sleet states that standards in at
least another two of his decisions: W.R. Berkley Corp. v. Niemela,
Slip Copy (2017), WL 4081871 and Blackbird Tech. LLC, d/b/a
Blackbird-Technologies v. Tuffstuff Fitness International, Inc. and
the Gym Source, Inc. Civ. A. No. 16-733-GMS.
38

134-GMS, 910 F. Supp.2d 718, 2012 WL 5865742, at *1
(D. Del. Nov. 16, 2012). It is the defendant’s respon­
sibility to demonstrate that transfer is appropriate at
each step, Jumara, 55 F.3d at 879-80, and, “unless the
balance of convenience of the parties is strongly in favor
of defendant, the plaintiffs choice of forum should
prevail.” Shuttle v. Armco Steel Corp., 431 F.2d 22, 25
(3d Cir. 1970); see also Smart Audio Techs., 2012 WL
5865742, at *3, 910 F. Supp.2d 718. See W.R. Berkley
Corp.

v

Niemela,

Slip

Copy

2017

WL

4081871.

Petitioner’s Petition for Writ of Mandamus to the Third
Circuit Court of Appeals and her two Petitions written
under

provisions

of

Delaware

Constitution

for

impeachment of three Delaware Judges including the
Chief Justice, Anne Hartnett Reigle and the one
presiding over this case but was refused by her Senator
who claimed that all against whom Petitioner wrote her
Petition for Impeachment are his “childhood friends is

39

sufficient evidence that Petitioner could not get access to
justice in Delaware courts either state or federal.
3.

Filing of ‘Notice of Removal” by Petitioner was
Beyond 30 days allowed by § 1446(b).

Taking into consideration that the Appellant’s Notice of
Transfer is filed under provisions of civil rights statute
or 28 U.S.C. § 1443 does 30-day limitation apply to this
case?
4. “CCP Construed Shahin’s Complaint as Raising
a Civil Tort Action Finding no Claim of
Violation of Federal Law Pursuant to 42 U.S.C.
§ 1983.”
This issue numbered as “fourth” in the Respondent’s # 1
Memorandum Opinion (page 0 in Appendix M) is the
;

.

• •

'

most complicated one because it was obfuscated by both
Respondents

in their

decisions

and raises

many

questions: 1) What authority has the CCP to “construe”
Petitioner’s

Complaint

as

filed

under

civil

tort

provisions?

Complaint did not make reference to any

law provisions but provided only facts that portrayed
Petitioner as a victim of crime “under color of law.”
40

It

appears that there are at least two different types of
tort: tort of deceit known as “fraud” and tort of
negligence. In this particular case “tort” is not as simple
as “negligence” but is actual “fraud” and a crime
punishable by law and not simple “civil wrong” and
entitles the victim for compensation as a victim of crime
Then, after Officer Boney filed his Motion to Dismiss
because

he

was

allegedly

entitled

to

immunity

Petitioner in her ‘Objections’ filed on September 23,
2014 (Appendix V) provided examples of a systematic
Dover Police harassment of the Petitioner that started
in 2012 with her illegal arrest, illegal incarceration
(when she was unconscious), beatings and torture in
prison, her inability to enforce relevant and controlling
antidiscrimination laws and other “biases” of the state
courts that protect the rich and punish the poor and
specifically indicated that immunity under the cited
state law does not cover “acts” that “were performed
with wanton negligence or willful and malicious intent”
41

(page 13, Appendix V). Then, in response to the
Respondent’s # 2 order dated December 15, 2015 (more
than a year after Petitioner had filed her lawsuit)
Petitioner specifically indicated that her claims fall
under provisions of 42 U.S.C. § 1983. So, although,
Petitioner did not mention

her claims under 42

U.S.C. ,$ 1983 in her Complaint should that fact
cancel her rights to claims under that Statute?
Petitioner would like to re mind, that the attorney who
' • •• -

- 1• ••

'

•

''

represented Officer Dale Boney claimed that if the
Petitioner had filed her claims under that statute
Defendant had the right to transfer the case to the
federal court!
5. “All Defendants” Who Have Been Properly
Joined and Served Must Join in or Consent to
the Removal of the Action.
Petitioner did not find in the cited case (i'.e.,Auldv.
Auld, 553 F. App’x, 807 (2014) reference to any consent
that should, have been obtained from the Defendants in

42

the case of civil rights statute! The other Respondent’s
#1 argument with reference to the case of Anderson v.
Toomey, L.P., 2008 WL 48381839 that “only defendant
may remove to federal court” belongs to the issue # 1
above and simply repetitive here.
6. Respondent # 1 Claimed at # 6 Issue That There
Is Nothing Left to Remove.”
Taking into consideration that all Courts dismissed
Petitioner’s Complaint under “immunity” provision and
no claims under provisions of 42 U.S.C. § 1983 had been
considered that Judge’s claims is dishonest, to say the
least, and, abuse of judicial discretion, to say the most.
In conclusion Petitioner would like to emphasize the
following facts and legal issues:
•

Respondent # 2 in his decision of 07/19/2016 (Appen­

dix R, page 10) claimed that “The Court disregarded the
plaintiffs 42 U.S.C. § 1983 claim because it was
improper and outside the scope of the Court’s order.” It

43

was not clear though why it was “improper” but clear
that it was “outside the Court’s order” because of lack of
subject matter jurisdiction. Judge’s claim that the first
mention of “42 U.S.C. § 1983 was addressed in the
Petitioner’s Response to the Court’s Order for additional
argument concerning the defendant’s immunity defense
under, the County and Municipal Tort Claims Act” but
then in contradiction he claimed that “The proper course
was for the plaintiff to file a motion to amend pleadings”
although no any reference to the law, precedent or rules
of Court were mentioned to support that , claim.
Respondent # 2 ordered Petitioner to respond to the
Defendant’s claim of immunity and she specifically
indicated that under provisions of 42 U.S.C. § 1983
Defendant does not have such immunity but the Judge
considered that claim invalid, REALLY? Plaintiff did so
in her ‘Motion-‘Election” for Initiation of the Process to
Transfer the Case to Federal Court for the District of

44

DE under 10 Del.C. §1902 and 42 U.S.C. § 1983’ filed on
08/19/2016 which is a way “Motion to Amend Pleadings.”
•

In Petitioner’s ‘Motion-“Election’” (Appendix Q)

Petitioner made reference to several decisions of the
United States Supreme Court that indicated that local
governments have no immunity from damages flowing
from their constitutional violations, and may not assert
the good faith claims of its agents as a defense to
liability; Owen v. City of Independence, MO, 445 U.S.
621 (1980), Moriell v. Dept, of Social Services of New
York, 436 U.S. 658, 699-700 (1978). The issue was very
important since Petitioner added City of Dover to the
list of Defendants in the case because of the attorney’s
whim.
•

42 U.S.C. § 1983 specifically indicated that liability

exists for “deprivation of any rights, privileges, or
immunities secured by the Constitution and law” and
the facts of this case clearly demonstrate that the Dover
Police Officer, Dale Boney, who fabricated the evidence
45

and issued citation to the Petitioner, although the other
party was at fault in the accident in violation of ‘due
process’

and ‘equal protection’ provisions

Fourteenth

Amendment

of

the

United

of the
States

Constitution. Even if the actions of the Officer were
based on the fraudulent testimony of a witness he had
his own eyes and could have examined the location of
damages on both cars which he failed to do. He later
claimed in the Jusstice of the Peace Court that
Petitioner refused to. talk to him which was a lie and
petitioner’s husband who was present there is a witness
of that lie. In that regard his conduct was “arbitrary, or
conscience shocking, in constitutional sense” Collins v.
City of Harker Heights, Texas, 503 U.S. 115, 128 (1992).
Moreover, in constituting the Due Process Clause, the
United State Supreme Court has held that negligent
acts by state actors do not effect a “deprivation” for
purposes of the Due Process Clause if the state provides
a meaningful post-deprivation remedy, such as, for
*

46

.

i

'

'■

■■

■

example, a tort remedy in its own courts. See Hudson v.
Palmer, 517, 533 (1984). In this case the Court’s Oder
in response to which Petitioner’s ‘Motion-“Election’” had
been filed specifically denied the Plaintiff a “tort
remedy” under the state law making a transfer to a
federal court a legal and constitutional necessity.
IV.

Statement of Relief Sought.

The same Third Circuit Court of Appeals ruled in ano­
ther case, (see Shuttle u. Armco Steel Corp., 431 F.2d 22,
23 (3d Cir. 1970)) - “The use of the mandamus power
conferred on this court by the All Writs Act, 28 U.S.C.
§1651, can be the indicated remedy to correct an
erroneous transfer. Van Dusen v. Barrak, 376 U.S. 612,
84 S. Ct. 805, 11 L. Ed. 2d 945 (1964);
Since both US District Court for the District of
Delaware and the Third Circuit Court of Appeals failed
in its legal functions, Petitioner, therefore asks this
Court for the following remedies:
47

1) Remand the case back to the US District Court for
the District of Delaware for proper judicial proceedings
with process of discovery that includes subpoena of a
witness (“eye witness” of the accident) and determining
the Officer’s liability under provisions of 42 U.S.C.
§1983 and the City of Dover under 42 U.S.C. § 1985.
2)

Mandate the Judge of the Delaware Court of

Common Pleas Honorable Charles . W. Welch, III tq
transfer the case regarding Officer Dale Boney to US
federal Court for the District of Delaware and grant
Petitioner’s Motion for Joinder of Indispensible Party,
All State Insurance Company that provided insurance to
the person who committed the accident — Ms. CalicottTrawick.
V. Reasons Why Writ Should Issue.
The reasons the Writ requested herein should issue are
as follows: i) there are issues raised in ## 1-6 above that
were not clearly defined in the law or precedent and
were interpreted in different ways by courts including
48

Third Court of Appeals in its different decisions; ii)
judicial processes in State and Federal court system
grossly

violated

Petitioner’s

constitutional

rights,

pattern that has been going on since Petitioner, a
Ukrainian national minority, with her husband of
Egyptian national origin, entered this country legally in
1989 in all aspects of their lives: employment, financial
rights, credit opportunity,

violations of her constitu­

tional rights under Amendments IV, VI, VIII, and XIV
to the United States Constitution; iii) Petitioner filed
numerous Petitions for Writ of Certiorari to this Court
which all have been denied in cases which she now
understands had been filed in State Courts under
provisions of federal laws or, in other words, in the
courts

that

lacked

subject

matter

jurisdiction.

Petitioner, herefore preys for the last chance for this
Court to honor her civil and constitutional rights.
VI. Appendix provides copies of documents that
incorporate by reference herein Appendices
from A to X as indicated in Table of Contents.
49

Wherefore, Petitioner respectfully prays that a Writ of
Mandamus or, in the alternative, a Writ of Prohibition,
be issued by this Court directed to Respondents, the
Honorable Lenard P. Stark, Judge of the United States
District Court for the District of Delaware, for accepting
the transfer of the Petitioner’s case to that Court and to
Honorable Charles W. Welch, III, Judge of the Delaware
Court of Common Pleas in and for Kent County to issue
Order for transfer of the case to the US Federal Court
for the District of Delaware in relation to the Defendant,
Officer Dale Boney, and for granting Petitioner’s Motion
for Joinder of Indispensible Party, All State Insurance
Company to the lawsuit and any further relief as the
Court may deem proper.
Date: May 8,2020
For the Petitioner,
NINA SHAHIN, CPA, MAS, MST

50

